No. 20-637
IN THE

supreme Court of the Einiteb Stateo
DARRELL HEMPHILL,
Petitioner,
v.

STATE OF NEW YORK,
Respondent.

On Writ of Certiorari to the
Court of Appeals of New York

BRIEF AMICI CURIAE OF EVIDENCE AND
CRIMINAL PROCEDURE PROFESSORS
JOHN H. BLUME, TAMARA RICE LAVE,
ROBERT P. MOSTELLER, ERIN E. MURPHY,
ANNA ROBERTS, AND ANDREA ROTH
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,901 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 29, 2021.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

